           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       ADMINISTRATIVE COSTS
     CLAIMED BY THE ARKANSAS
     DISABILITY DETERMINATION
              SERVICES

     October 2005   A-06-05-15077



 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   October 11, 2005                                                  Refer To:

To:     Ramona Schuenemeyer
        Regional Commissioner
         Dallas

From:   Inspector General

Subject: Administrative Costs Claimed by the Arkansas Disability Determination Services
        (A-06-05-15077)

        OBJECTIVE
        Our objectives were to (1) determine whether costs claimed on the State Agency Report
        of Obligations for SSA Disability Programs for the period October 1, 2001 through
        September 30, 2003, were allowable and properly allocated and funds were properly
        drawn; (2) evaluate the Arkansas Disability Determination Services’ (AR-DDS) internal
        controls over the accounting and reporting of administrative costs; and (3) perform a
        limited review of the general security control environment.

        BACKGROUND

        The Disability Insurance (DI) program, established under Title II of the Social Security
        Act, provides benefits to wage earners and their families in the event the wage earner
        becomes disabled. The Supplemental Security Income (SSI) program, established
        under Title XVI of the Act, provides benefits to financially needy individuals who are
        aged, blind, and/or disabled.

        The Social Security Administration (SSA) is responsible for implementing policies for the
        development of disability claims under the DI and SSI programs. Disability
        determinations under both DI and SSI are performed by disability determination
        services (DDS) in each State, Puerto Rico and the District of Columbia in accordance
        with Federal regulations.1 In carrying out its obligation, each DDS is responsible for
        determining claimants’ disabilities and ensuring that adequate evidence is available to
        support its determinations. To assist in making proper disability determinations, each
        DDS is authorized to purchase medical examinations, x-rays, and laboratory tests on a
        consultative basis to supplement evidence obtained from the claimants’ physicians or
        other treating sources.

        1
            20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
Page 2 – Ramona Schuenemeyer


SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization. The DDS withdraws Federal funds through the Department of the
Treasury’s (Treasury) Automated Standard Application for Payments system to pay for
program expenditures. Funds drawn down must comply with Federal regulations2 and
intergovernmental agreements entered into by Treasury and States under the Cash
Management Improvement Act of 1990.3 An advance or reimbursement for costs under
the program must comply with the Office of Management and Budget’s Circular A-87,
Cost Principles for State, Local, and Indian Tribal Governments. At the end of each
quarter of the Fiscal Year (FY), each DDS submits a State Agency Report of
Obligations for SSA Disability Programs (Form SSA-4513) to account for program
disbursements and unliquidated obligations for the FY.4 The Form SSA-4513 reports
expenditures and unliquidated obligations for Personnel Service Costs, Medical Costs,
Indirect Costs, and All Other Nonpersonnel Costs.

The Director of the AR-DDS reports directly to the Governor. AR-DDS maintains an
accounting of DDS funds and disbursements, completes expense reports to submit to
SSA, and prepares requests to transfer cash from Treasury to the State Treasurer. The
State’s indirect costs for the AR-DDS are determined based on rates negotiated and
approved by the Department of Health and Human Services. As of March 31, 2005,
AR-DDS reported program disbursements and unliquidated obligations on
Form SSA-4513, as shown below:

                    REPORTING ITEM                    FY 2002                FY 2003
             Disbursements
                  Personnel                           $11,283,566            $11,468,667
                  Medical                                4,745,710              5,217,994
                  Indirect Costs                             93,962               141,668
                  All Other Nonpersonnel                 1,715,068              1,661,206
                Total Disbursements                     17,838,306            18,489,535
             Unliquidated Obligations                               0              20,000
             Total Obligations                        $17,838,306            $18,509,535




2
    31 C.F.R. § 205.1 et seq.
3
    Public Law 101-453.
4
 SSA, Program Operations Manual System (POMS), DI 39506.200 B.4, The Reporting Process –
Recording and Reporting Obligations states, “Unliquidated obligations represent obligations for which
payment has not yet been made. Unpaid obligations are considered unliquidated whether or not the
goods or services have been received.”
Page 3 – Ramona Schuenemeyer

RESULTS OF REVIEW
For FYs 2002 and 2003, disbursements charged to SSA for AR-DDS operations were
generally allowable and allocable and funds were properly drawn. However, we found a
$20,000 unliquidated obligation not used for its authorized purpose, $2,196 in
overpayments to medical consultants, and funds from one FY used to pay expenditures
for another FY that totaled $288,308.

We found the internal control environment needed enhancements in the following areas
to ensure assets are adequately safeguarded and costs are efficiently used for program
related purposes: Medicaid disability determination reimbursement, consultative
examination (CE) fee schedule maintenance, equipment inventory, equipment rental
authorization, and medical license verifications. We also identified general security
control weaknesses.

ALLOWABILITY OF COSTS CLAIMED AND FUNDS MANAGEMENT

Unliquidated Obligations

The Form SSA-4513 for FY 2003 reflected a $20,000 unliquidated obligation that was
not obligated or otherwise committed for its originally authorized purpose. According to
Federal regulations, an obligation “…is available only for payment of expenses properly
incurred during the period of availability or to complete contracts properly made within
that period of availability....”5 In September 2003, SSA’s Dallas Region authorized the
expenditure of $20,000 to expand the DDS break room. As of December 2004, the
DDS had not clearly defined the work to be performed, prepared a cost estimate for the
renovation project, or contracted for the renovation. DDS management has since
decided to use the funds to convert a computer room into office space. Because the
funds were authorized to expand the break room and the AR-DDS did not timely
support the obligation with a valid purchase order, the funds can no longer be used for
FY 2003 expenditures. Accordingly, the funds should be de-obligated.

Medical Consultants Contract Rates

During FYs 2002 and 2003, AR-DDS overpaid medical consultants $2,196. This
occurred because the AR-DDS applied hourly rate increases in March 2002 instead of
on the effective date of July 2002 and did not fully recover the overpayments with
adjustments made between July and September 2002. AR-DDS staff acknowledged
the overpayment error.




5
    31 U.S.C. § 1502(a).
Page 4 – Ramona Schuenemeyer

Improper Cash Draws

The AR-DDS used funds from one FY to pay expenditures of another FY. Federal
regulations state, “The balance of an appropriation or fund limited for obligation to a
definite period is available only for payment of expenses properly incurred during the
period of availability…the appropriation or fund is not available for expenditure for a
period beyond the period otherwise authorized by law.”6 In October 2002, AR-DDS had
cash draws of $72,948 from FY 2002 funds to apply against FY 2003 expenditures.
During the first quarter of FY 2004, AR-DDS used $215,360 from FY 2003 funds to pay
for FY 2004 expenditures. The AR-DDS subsequently reimbursed these funds.
Accounting personnel stated the AR-DDS borrowed funds to cover current expenditures
at the beginning of each FY to promote continuity of operations because of the lag time
between the beginning of a FY and when budget authority was granted.

INTERNAL CONTROLS OVER ACCOUNTING AND REPORTING OF
ADMINISTRATIVE COSTS

Medicaid Disability Determinations Performed for the Arkansas Department of
Human Services

In 1993, the AR-DDS established a fee of $1 to perform Medicaid disability
determinations and it used this amount to charge the State of Arkansas for the
16,367 Medicaid disability determinations it performed during FYs 2002 and 2003. The
fee had not been revised and the AR-DDS did not document how it calculated the
$1 amount. According to SSA policy, when a DDS performs non-SSA work, the DDS is
required to “…clearly identify all non-SSA program work costs to provide as accurate an
allocation as possible”7 and “…to periodically revise these cost estimates to reflect
changing experience.”8 By not identifying all costs associated with this work and
revising fees to reflect changing experience, the AR-DDS could not demonstrate that it
received adequate reimbursement for its non-SSA work.

Consultative Examination Fees Paid in Excess of Medicare or Medicaid Fee
Schedule

During FYs 2002 and 2003, AR-DDS paid $191,122 ($81,850 in FY 2002 and
$109,272 in FY 2003) for CE fees in excess of maximum allowable rates established by
Medicare/Medicaid. Federal regulations state that rates of payment used by the State
“…may not exceed the highest rate paid by Federal or other agencies in the State for
the same or similar type of service.”9 The State must also maintain documentation to

6
    Id.
7
    SSA, POMS, DI 39518.040 B, Non-SSA Program Work -- DDS.
8
    SSA, POMS, DI 39563.210 D.2, Non-SSA Program Work.
9
    20 C.F.R. §§ 404.1624 and 416.1024.
Page 5 – Ramona Schuenemeyer

support the rates of payment used.10 We found AR-DDS had not updated some fees
appearing on the rate schedule since 1984. Also, discussion with DDS personnel
indicated that in some cases where procedures listed on the AR-DDS fee schedule
exceeded the Medicare/Medicaid maximum allowable rate, no documentation was
available to indicate how the DDS arrived at the established fee. SSA policy for
monitoring and maintaining fee schedules states in part that DDSs will review the
adequacy and cost effectiveness of fee schedules on an on-going basis.11
Implementation of this policy would help ensure AR-DDS pays fair and reasonable
prices for these services.

Equipment Inventory

AR-DDS did not maintain adequate equipment inventory records. According to Federal
regulations, the State is responsible for maintenance and inventory of all equipment
acquired whether purchased through SSA or the State.12 However, laptop computers
and a big screen television purchased by SSA did not appear on inventory records and
AR-DDS did not update inventory listings to remove disposed items. For example, an
uninterrupted power supply valued at $31,341 removed from the DDS in 1999 was still
listed on the inventory records. Further, peripheral Electronic Data Processing
equipment such as scanners and printers were not properly labeled and could not be
traced back to inventory listings. Proper equipment accountability reduces the risk of
loss or theft.

Equipment Rental Authorization

AR-DDS did not obtain the required Regional Office (RO) approval for the rental of
copiers on 3-year leases totaling $87,932. SSA policy requires RO approval prior to the
DDS renting equipment for more than 180 days.13 According to AR-DDS staff, they
believed the copier leases were part of normal operating costs and would have been
approved by the RO, if requested.

Medical License Verifications and Exclusions

AR-DDS did not verify licensure and credentials for contracted medical consultants or
verify whether these consultants and DDS staff doctors were sanctioned from
participation in Federal or federally assisted programs, as required.14 This occurred
because the DDS did not implement controls to ensure both verifications were
performed for medical consultants and DDS staff doctors. We independently verified
that these doctors were currently licensed and that none appeared on sanctioned lists.
10
     Id.
11
     SSA, POMS, DI 39545.410 B.1.d, Monitoring and Maintenance of Fee Schedules.
12
     20 C.F.R. §§ 404.1628 and 416.1028.
13
     SSA, POMS, DI 39530.010, Rental of DDS Equipment.
14
     SSA, POMS, DI 39569.004 D, Program Integrity.
Page 6 – Ramona Schuenemeyer

In the future, AR-DDS must perform these verifications to ensure that only qualified
medical providers perform disability determination services.

GENERAL SECURITY CONTROLS

During our review, we identified the following general security control weaknesses:

•     AR-DDS contracted for the performance of janitorial services after business hours
      when DDS employees were not present. SSA policy states that “…under no
      circumstance is a non-employee to be left unescorted in any area of the DDS.”15
      AR-DDS arranged custodial work to be performed in the evening so the cleaning
      staff would not interrupt DDS employees during work hours.

•     AR-DDS did not restrict access to the computer room. The entrance to the
      computer room was frequently left unlocked and unattended. On one occasion, we
      observed the computer room door was left open and no one was inside. An
      additional room containing wiring for computers was also unlocked. Also, the walls
      in this room did not extend above the suspended ceiling, as required.16

•     AR-DDS issued keys allowing building access to custodial and cafeteria workers and
      did not change the combinations on locks when staff with knowledge of the
      combinations left employment. SSA policy17 states issuance of keys that unlock outer
      doors should be limited to management, and, if necessary, one or two additional
      employees. Also, combination/cipher lock codes should be changed when staff with
      knowledge of them leaves or no longer has a need to know them, or whenever
      compromise of the codes occurs or is suspected.18

CONCLUSION AND RECOMMENDATIONS

While funds charged for the program were generally allowable and allocable, we
determined that some costs charged to SSA were not allowable and that AR-DDS could
have reduced program costs by better administering its CE fee schedules. In addition,
we identified several deficiencies with the administration of the program indicating the
internal control environment needs enhancement. Effective internal controls ensure that
assets are safeguarded and funds are properly and efficiently used. We also identified
general security control weaknesses. We recommend SSA instruct AR-DDS to make
adjustments to amounts charged to SSA and improve draw down procedures, improve
its internal control environment, and comply with SSA’s security policies. Specifically,
we recommend SSA instruct AR-DDS to:

15
     SSA, POMS, DI 39566.120 C.1.f, DDS Sample Security Profile – Exhibit 1.
16
     DDS Security Document, Chapter VII Physical Security, Internal Office Security, page 36.
17
     SSA, POMS, DI 39566.090 B.2.c, Security Program Guides.
18
     DDS Security Document, Chapter VII Physical Security, Access Controls, page 38.
Page 7 – Ramona Schuenemeyer


1.   Deobligate the $20,000 from the FY 2003 Form SSA-4513.

2.   Refund $2,196 of costs overpaid to medical consultants and comply with contract
     provisions in paying medical consultants.

3.   Cease the practice of borrowing funds from one FY’s appropriation to pay
     expenses of another FY.

4.   Update the agreement with the Arkansas State Department of Human Services to
     provide for adequate reimbursement to SSA for all direct and indirect costs
     incurred in performance of Medicaid disability determinations.

5.   Conduct reviews of the CE fee schedule and update rates on an on-going basis to
     ensure that fees do not exceed allowable limits such as the $191,122 identified in
     this report.

6.   Maintain proper equipment inventories.

7.   Secure RO approval prior to renting equipment for more than 180 days or
     extending a rental beyond 180 days.

8.   Ensure medical consultants are properly licensed and are not sanctioned from
     participation in Federal programs.

9.   Comply with SSA guidance for general security controls specified in the audit
     report.


AGENCY COMMENTS

SSA agreed with all of our recommendations. SSA’s comments are included in
Appendix D.

STATE AGENCY COMMENTS
The AR-DDS agreed with all of our recommendations. However, the AR-DDS
disagreed with our calculation of consultative examination fees paid in excess of
maximums allowed by Medicare or Medicaid. AR-DDS stated it uses internally defined
current procedural terminology codes without corresponding Medicare or Medicaid
procedures. Consequently, AR-DDS believed $138,108 of the $191,122 in excess
payments identified in the report were properly paid. AR-DDS’s comments are included
in Appendix E.
Page 8 – Ramona Schuenemeyer

OIG RESPONSE

We appreciate the comments received from SSA and AR-DDS. Concerning AR-DDS’s
response to recommendation 5, we stand by our conclusion that AR-DDS charged
$191,122 in excess CE fees because it did not update its fee schedules timely and it
could not demonstrate how it developed its rates. During the course of the audit,
AR-DDS personnel cross-walked and linked each internally defined CPT code to an
equivalent American Medical Association CPT code. Based on these linked codes, we
compared the fees to Medicare/Medicaid maximum allowable rates and determined that
amounts charged exceeded the Medicare/Medicaid rates. AR-DDS personnel could not
provide documentation or explain how they established the rates, and, as noted in the
report, AR-DDS had not updated some rates since 1984. We acknowledge that the
Dallas Regional Office and the AR-DDS recently completed a review of the AR-DDS fee
schedule. This review along with AR-DDS’ ongoing assessments of its fee schedules
should prevent payment of excessive CE fees in the future.




                                                 S
                                                 Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Arkansas Disability Determination Services, Schedule of Costs
             Reported, Questioned and Allowed

APPENDIX D – Agency Comments

APPENDIX E – State Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                 Appendix A

Acronyms
AR-DDS          Arkansas Disability Determination Services
CE              Consultative Examination
C.F.R.          Code of Federal Regulations
DDS             Disability Determination Services
DI              Disability Insurance
FY              Fiscal Year
POMS            Program Operations Manual System
RO              Regional Office
SSA             Social Security Administration
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
SSI             Supplemental Security Income
Treasury        Department of the Treasury
U.S.C.          United States Code
                                                                        Appendix B

Scope and Methodology
We reviewed the administrative costs Arkansas reported to the Social Security
Administration (SSA) on State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513) for the period October 1, 2001 through
September 30, 2003—Fiscal Years (FY) 2002 through 2003. We obtained
computerized data from the State to support amounts reported on the Forms
SSA-4513 and tested the reliability of the data by comparing disbursements, by
category and in total, with amounts reported on Form SSA-4513. We then obtained
sufficient evidence to evaluate administrative costs in terms of their allowability under
Office of Management and Budget Circular A-87, Cost Principles for State, Local and
Indian Tribal Governments, and appropriateness, as defined by SSA's Program
Operations Manual System (POMS). The Arkansas Disability Determination Services
(AR-DDS) reported $36,347,841 in administrative costs for operations for the period
October 1, 2001 through September 30, 2003.

To meet our objectives, we:

•   reviewed applicable Federal laws and regulations and pertinent parts of SSA’s
    POMS, Disability Determination Services Fiscal and Administrative Management,
    and other instructions pertaining to administrative costs incurred by AR-DDS and the
    draw down of SSA funds;

•   interviewed AR-DDS staff;

•   documented our understanding of the AR-DDS’ system of internal controls over the
    accounting and reporting of administrative costs;

•   evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities, as well as the draw down of SSA funds;

•   traced administrative expenditures AR-DDS reported on its Forms SSA-4513 to
    accounting records;

•   analyzed AR-DDS’ draw downs of SSA funds and reconciled them with reported
    expenditures;

•   reviewed the Arkansas Statewide Single Audit reports;

•   conducted a physical inventory of selected AR-DDS equipment;




                                            B-1
•   conducted a limited examination of the physical security and environmental safety of
    AR-DDS;

•   sampled 50 employees from 1 pay period in FY 2003 and traced information to
    accounting records, timesheets, and personnel files;

•   sampled 50 medical cost payments from both FY 2002 and FY 2003 and compared
    them to the AR-DDS fee schedules and supporting documentation, and further
    compared all consultative examination payments to the maximum allowable costs of
    Medicare or Medicaid fee schedule; and

•   sampled 50 transactions per year from the all other nonpersonnel cost category from
    the 2,271 transactions for FY 2002, and 1,780 transactions for FY 2003 and
    compared the sampled transactions to supporting documentation.

The entities audited were the AR-DDS and the Office of Disability Determinations within
the Office of the Deputy Commissioner for Disability and Income Security Programs.
We conducted our audit from October 2004 through August 2005 at the AR-DDS in
Little Rock, Arkansas and SSA’s Regional Office in Dallas, Texas. We conducted our
audit in accordance with generally accepted government auditing standards.




                                           B-2
                                                         Appendix C

Arkansas Disability Determination Services,
Schedule of Costs Reported, Questioned and
Allowed
                FISCAL YEARS (FY) 2002 AND 2003 COMBINED
     Description     Costs Reported Costs Questioned   Costs Allowed
 Personnel                $22,752,233           $2,196     $22,750,037
 Medical                   $9,963,704                0       $9,963,704
 Indirect                    $235,630                0         $235,630
 All Other                 $3,396,274                0       $3,396,274
   Totals                 $36,347,841           $2,196     $36,345,645


                             FY 2002 COSTS
     Description    Costs Reported Costs Questioned     Costs Allowed
 Personnel               $11,283,566          $1,193        $11,282,373
 Medical                  $4,745,710               0          $4,745,710
 Indirect                    $93,962               0             $93,962
 All Other                $1,715,068               0          $1,715,068
   Totals                $17,838,306          $1,193        $17,837,113


                             FY 2003 COSTS
     Description    Costs Reported Costs Questioned     Costs Allowed
 Personnel               $11,468,667          $1,003        $11,467,664
 Medical                  $5,217,994               0          $5,217,994
 Indirect                   $141,668               0            $141,668
 All Other                $1,681,206               0          $1,681,206
   Totals                $18,509,535          $1,003        $18,508,532
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
 MEMORANDUM

 Date:     September 17, 2005

To:        Patrick P. O’Carroll, Jr
           Inspector General

From:      Ramona Schuenemeyer
           Regional Commissioner
           Dallas

Subject:   Administrative Costs Claimed by the Arkansas Disability Determination Services
           (A-06-05-15077) -- Reply

           We appreciate the opportunity to comment on this draft audit report. We are generally in
           agreement with each of the recommendations and are working with the DDS to implement any
           necessary changes. We appreciate the willingness of OIG Audit staff in the Dallas Region to
           work with us during the course of the audit to resolve questions as they arose.

           Our responses to the recommendations contained in the narrative report are as follows:

           1. Deobligate the $20,000 from the FY 2003 Form SSA-4513.

              We concur. This unliquidated obligation was intended for build-out of office space that was
              later found unnecessary. The DDS has already processed the deobligation.

           2. Refund $2,196 of costs overpaid to medical consultants and comply with contract provisions
              in paying medical consultants.

              We concur. The DDS is in process of recovering the overpayments and will credit the
              amount to SSA.

           3. Cease the practice of borrowing funds from one FY’s appropriation to pay expenses of
              another FY.

              We concur. This practice was done when SSA did not provide adequate funding under a
              Continuing Resolution to meet DDS payroll obligations. SSA’s guidance was that the DDS
              should remain in operation and the Regional Office was aware that the DDS was, on
              occasion, required to borrow from a previous year’s authorization. The issue was corrected
              once a sufficient allocation was provided to DDS. The Office of Disability Determinations
              has agreed to work closely with us during a Continuing Resolution to assure that Arkansas
              DDS has sufficient funds to meet their payroll obligations so the DDS is not forced to
              borrow funds in order to stay in operation.


                                                         D-1
4. Update the agreement with the Arkansas State Department of Human Services to provide
   for adequate reimbursement to SSA for all direct and indirect costs incurred in performance
   of Medicaid disability determinations.

   We concur. Arkansas DDS does not make Medicaid disability determinations, but only
   completes a brief form to certify the action taken on an SSA or SSI disability claim.
   However, the prior agreement has not been updated in more than 10 years and needs to be
   revisited. We plan to negotiate a new agreement including cost calculations that are
   available for review and implement that reimbursement rate for FY 06.

5. Conduct reviews of the CE fee schedule and update rates on an on-going basis to ensure that
   fees do not exceed allowable limits such as the $191,122 identified in this report.

   We concur. The Arkansas DDS and SSA RO completed a CE fee schedule review in 2004,
   which is outside the scope of this audit. The DDS will continue to review Medicare and
   Medicaid fees for similar services on an ongoing basis and to request RO approval for a
   variance, should they encounter difficulty obtaining specific examinations or testing within
   that framework.

6. Maintain proper equipment inventories.

   We concur. We have clarified for DDS that they need to maintain inventory on EDP
   equipment purchased by SSA on Federal contracts and provided to the DDS for their use.

7. Secure RO approval prior to renting equipment for more than 180 days or extending a rental
   beyond 180 days.

   We concur.

8. Ensure medical consultants are properly licensed and are not sanctioned from participation
   in Federal programs.

   We concur. The DDS has established an ongoing process to confirm licensing status and
   sanction information for DDS medical consultants as well as CE providers.

9. Comply with SSA guidance for general security controls specified in the audit report.

   We concur. The DDS has already resolved two of the three security issues described in the
   audit report. They are in the process of trying to change the hours that the janitorial staff
   performs custodial work in the DDS.

If you would like to discuss this, please call me. If your staff has questions, please have them
call Tom Berling at (214) 767-4281 in Management and Operations Support, Center for
Disability.



                                                D-2
                        Appendix E

State Agency Comments
E-1
E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Paul Davila, Director (214) 767-6317

   Ron Gunia, Audit Manager (214) 767-6620

Staff Acknowledgments
In addition to those named above:

   Wanda Renteria, Auditor-in-Charge

   Clara Soto, Auditor

   Annette DeRito, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-05-15077.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
